Comprehensive Audit Plan 

   for Southwest Asia





        June 2008

Additional copies of this Audit Plan can be obtained by contacting:

            Office of the Deputy Inspector General for Auditing
            Attn: Corporate Planning Branch
            Room 801
            400 Army Navy Drive
            Arlington, VA 22202-2884

            (703) 604-9142 (DSN 664-9142)

This plan is also available on our Web site at:
http://www.dodig.mil/audit

If you need additional information for the following agencies, please contact
them directly.

   Inspector General, Department of State
   (202) 663-0378
   http://oig.state.gov/

   Inspector General, U.S. Agency for International Development
   (202) 712-1020
   http://www.usaid.gov/oig

   Special Inspector General for Iraq Reconstruction
   (703) 428-1058
   www.sigir.mil

   U.S. Army Audit Agency
   (703) 681-8178
   www.hqda.army.mil/aaaweb

   Air Force Audit Agency
   (703) 696-7904
   www.afaa.hq.af.mil

   Defense Contract Audit Agency
   (703) 767-2236
   www.dcaa.mil
                                    FOREWORD
       The FY 2008 National Defense Authorization Act Section 842, "Investigation of Waste,
Fraud, and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,"
January 28, 2008, requires the Inspector General of the Department of Defense to develop a
comprehensive plan for a series of audits of Department of Defense contracts, subcontracts, and
task and delivery orders for the logistical support of coalition forces in Iraq and Afghanistan.
The Act also requires that the Special Inspector Generals for Iraq Reconstruction and
Afghanistan Reconstruction develop a comprehensive plan for a series of audits of Federal
agency contracts, subcontracts, and task and delivery orders for the performance of security and
reconstruction functions in Iraq and Afghanistan.

        We have expanded this audit plan beyond the statutory mandate to show all of the audit
work for Iraq and Afghanistan, including other key issue areas, such as financial management,
systems contracts, and human capital for contract administration. This plan incorporates the
planned audit work of the Inspectors General of the Department of State and the U.S. Agency for
International Development and the Special Inspector General for Iraq Reconstruction. It also
includes the planned audit work of the Army Audit Agency, Air Force Audit Agency, and
Defense Contract Audit Agency because of the major contributions they make to improve the
efficiency and effectiveness of support to the military. We continue to coordinate audit plans
through existing working groups and councils.
Table of Contents 


Inspector General, Department of Defense 

             Planned Projects....................................................................................... 1   

             Ongoing Projects...................................................................................... 7    


Inspector General, Department of State 

             Planned Projects..................................................................................... 12    

             Ongoing Projects.................................................................................... 15     


Inspector General, U.S. Agency for International Development ........................... 16 


Special Inspector General for Iraq Reconstruction 

             Planned Projects..................................................................................... 24    

             Ongoing Projects.................................................................................... 26     


U.S. Army Audit Agency 

             Planned Projects..................................................................................... 27    

             Ongoing Projects.................................................................................... 30     


Air Force Audit Agency 

             Planned Projects..................................................................................... 35    

             Ongoing Projects.................................................................................... 36     


Defense Contract Audit Agency............................................................................. 37 

Inspector General, Department of Defense


            INSPECTOR GENERAL, DEPARTMENT OF DEFENSE


PLANNED PROJECTS 



THIRD QUARTER FY 2008 START
   Award of Urgent Procurements for Linguistics in Support of the Global War on Terror.
Objective: To review whether the awards of urgent procurements for linguistics were properly
justified and whether prices were appropriately established as fair and reasonable.

  Contract Award and Administration of Security Services Contracts for Afghanistan.
Objective: To determine whether security services contracts for Afghanistan are awarded and
administered in accordance with the Federal Acquisition Regulation.

   Contracting for Clothing Requirements for Civilian and Contractor Personnel Deployed
to Iraq and Afghanistan. Objective: To determine how much the Central Issuing Facilities
contracts fulfill the clothing requirement for both DoD civilian and contractor personnel
deployed to Iraq and Afghanistan; how contract requirements, terms, and conditions were
developed; and the adequacy of cost controls.

   Contractor Reimbursement for Medical Care Provided by the Military in Southwest
Asia. Objective: To examine the monetary burden on the military medical community in
country to provide health care for contractor personnel as well as review contracts to determine
whether reimbursement arrangements are addressed when contracts are bid and awarded. There
are more civilians, particularly contractor personnel, than military personnel in Iraq and
Afghanistan, and if these persons are injured and require medical attention or require refills for
their medicines, those medical needs are provided by the military hospitals and trauma centers.

   Contractors Indebted to the U.S. Government Performing Work in Support of the
Global War on Terror. Objective: To review the DoD contractor debt collection process and
the controls associated with the List of Contractors Indebted to the United States who are
performing work in support of the Global War on Terror. Specifically, we will also identify if
the Government is in a position to collect monies due to the Government prior to making any
contract payments.

   Controls over Contractor Common Access Cards in the U.S. Central Command.
Objective: To evaluate the controls over the issuance, revocation, reverification, and recovery of
contractor common access cards in the U.S. Central Command area of responsibility. We also
plan to determine whether the CAC database will be a good source to identify the number of
contractors in-country.




                                                 1

Inspector General, Department of Defense
Inspector General, Department of Defense


   Defense Finance and Accounting Service Personnel Support for the Global War on
Terror. Objective: To determine whether the current level of Defense Finance and Accounting
Service personnel assigned to support the mission in Iraq, Afghanistan, and Kuwait is adequate
to ensure accurate and timely accounting and contract payments.

  Deferred Maintenance on DoD Weapon Systems as a Result of the Global War on
Terror. Objective: To assess the extent and causes of deferred maintenance that result from the
Global War on Terror.

   DoD Compliance with Federal Tax Reporting Requirements for Contractors Supporting
Global War on Terror. Objective: To determine whether payments to contractors and
individuals performing work in support of the Global War on Terror were properly reported to
the Internal Revenue Service.

   Equipment Repairs and Maintenance Contracts in Support of Operation Iraqi Freedom
and Operation Enduring Freedom. Objective: To evaluate the development of contract
requirements, award of contracts and task orders, and the administration of the contracts and task
orders for equipment repairs and maintenance within Iraq and Afghanistan.

   Funds for Iraq Processed through the Security Assistance Program. Objective: To
determine whether funds for Iraq processed through the Security Assistance Program and the
Foreign Military Sales Trust Fund are properly managed.

   Information Assurance of the Outside the Continental United States Navy Enterprise
Network as it Relates to the Global War on Terror. Objective: To assess the integrity,
confidentiality, and availability of the Outside the Continental United States Navy Enterprise
Network particularly as it is used in Global War on Terror deployments. The information
assurance testing will include examining continuity, enclave boundary defense, identification and
authentication, personnel, security design and configuration, enclave computing environment,
vulnerability and incident management, and physical and environmental information assurance
control subject areas.

   Marine Corps Military Pay in Support of the Global War on Terror. Objective: To
determine whether Marine Corps military payroll disbursed in support of the Global War on
Terror is paid in accordance with established laws and regulations.

   Requirements Determination at the Defense Supply Center Columbus. Objective: To
determine whether quantities of items being purchased by the Defense Supply Center Columbus
matched anticipated Global War on Terror requirements and whether internal management
controls over the determination of the procurement requirements were effective.

   Review of Funds Transferred to Iraq and Afghanistan Security Forces through the State
and Justice Departments. Objective: To evaluate the DoD oversight procedures over funding
for the Iraq and Afghanistan Security Forces made through the Department of Justice and the
State Department.




                                                2

Inspector General, Department of Defense
Inspector General, Department of Defense


   Transition Planning for the Logistics Civil Augmentation Program IV Contract.
Objective: To determine whether the Army properly planned for acquisition transition from
Logistics Civil Augmentation Program III contract to the Logistics Civil Augmentation Program
IV contract.


FOURTH QUARTER FY 2008 START

   Accounting Systems Used in Southwest Asia. Objective: To determine the adequacy of the
accounting systems used in Southwest Asia to include capability for processing properly
supported and recorded transactions.

   Acquisition Workforce at the Defense Contract Management Agency. Objective: To
assess the amount of DoD civilian, military, foreign national, and contracted support services
within the Defense Contract Management Agency devoted to support the Global War on Terror.
We will also evaluate whether the Defense Contract Management Agency Acquisition
Workforce is adequately trained and certified.

  Army and Air Force Military Pay in Support of the Global War on Terror. Objective:
To determine whether the Army and Air Force military payroll disbursed in support of the
Global War on Terror is paid in accordance with established laws and regulations.

   Civilian Pay in Support of Global War on Terror. Objective: To determine whether
civilian pay disbursed in support of the Global War on Terror is paid in accordance with
established laws and regulations.

   Controls Over the Funds to Refit Equipment at the Army Depots. Objective: To
evaluate controls over the funds to refit equipment at the Army depots.

  Controls Over Unliquidated Obligations on Contracts Supporting the Global War on
Terror. Objective: To determine the amount of unliquidated obligations on contracts and
whether DoD has established adequate management controls over the unliquidated obligations.

   DoD Counter Narcoterrorism Technology Program Office, Program and Operations
Support, Indefinite Delivery/Indefinite Quantity Contract. Objective: To determine whether
the DoD Counter Narcoterrorism Technology Program Office support contract for Southwest
Asia is consistent with the Federal Acquisition Regulation.

   Durability and Sustainability of Body Armor. Objective: To evaluate the durability and
sustainability of body armor. Specifically, we will evaluate the life cycle management of body
armor components to include maintenance, repair, and durability.

   Ground Standoff Mine Detection System Contract. Objective: To evaluate the manner in
which Ground Standoff Mine Detection System contract requirements were developed, the
procedures under which contracts or task or delivery orders were awarded, and the efficiency of
DoD management and oversight of the contract.


                                               3

Inspector General, Department of Defense
Inspector General, Department of Defense


  High Mobility Multipurpose Wheeled Vehicle Contract. Objective: To determine
whether American General charged fair and reasonable prices for noncommercial modifications
under contract DAAE07-01-C-S001.

   Internal Controls over Contract Systems Used in Southwest Asia. Objective: To
determine the adequacy of internal controls of contracting systems used in Southwest Asia.

   Logistics Support for the U.S. Special Operations Command. Objective: To determine
whether contracts providing logistics support to the U.S. Special Operations Forces were
properly awarded and administered.

   Military Construction Projects Executed Through the Army’s Logistics Civil
Augmentation Program Contract. Objective: To survey the military construction projects for
Iraq and Afghanistan performed under the Army's Logistics Civil Augmentation Program
contracts and determine which projects need reviews.

   Mine Resistant Ambush Protected Repair and Maintenance Contracts. Objective: To
determine whether contracts for maintenance and repair of Mine Resistant Ambush Protected
vehicles were properly awarded and administered.

   Operation and Maintenance of Permanent Facilities in Afghanistan. Objective: To
review the award and administration of contract W912ER-04-D-0003 task order 0015 for the
operation and maintenance of facilities in Afghanistan.

   Purchasing and Leasing of Vehicles in Support of Operation Iraqi Freedom and
Operation Enduring Freedom. Objective: To examine contracts and task orders for vehicles
either purchased or leased to support Operation Iraqi Freedom and Operation Enduring Freedom
and to evaluate the development of the requirements, award of the contract or task order, the
administration of the contract or task order, and the reasonableness of the cost to DoD.

   Quality Assurance Procedures for Kevlar Helmets. We are initiating this project as a
result of a Congressional request. Objective: To determine whether DoD was aware of prior
defects with Kevlar helmets produced by Sioux Manufacturing, and whether DoD provided
oversight to ensure the contractor met quality standards.

   Rapid Development and Fielding of Material Solutions Within the Navy. Objective: To
evaluate the management of the Navy process used to rapidly develop and field material
solutions to meet urgent needs in support of the Global War on Terror.

   Selection of Mode of Transportation of Materials in Support of Operation Iraqi
Freedom and Operation Enduring Freedom. Objective: To examine contracts and task
orders for ground, air, and sealift transportation modes and evaluate how the shipping
requirements were determined, the procedures used to select the transporting company, the terms
of the contract and task orders, and the oversight provided.

   Survey of Kellogg Brown and Root Services Logistics Support for Contingency
Operations. Objective: To determine the full extent of Kellogg Brown and Root Services
logistics efforts and associated DoD costs in support of Contingency Operations.

                                               4

Inspector General, Department of Defense
Inspector General, Department of Defense


   Times and Material Contracts in Southwest Asia. Objective: To determine whether time
and material contracts were awarded and administered in accordance with the Federal
Acquisition Regulation.

   U.S. Central Command Government Purchase Card Program. Objective: To assess
whether the U.S. Central Command’s use of government purchase cards complies with
applicable laws and regulations. The audit helps meet the statutory mandate to perform periodic
audits of the Department of Defense management of purchase cards per Title 10, United States
Code, Section 2784.

   Use of Contractor to Provide Food Service or Food in Support of Operation Iraqi
Freedom and Operation Enduring Freedom. Objective: To examine contracts and task
orders awarded for the Army Subsistence Program and evaluate whether the Defense Personnel
Support Center, Philadelphia, PA, properly defined the requirements, awarded the contracts, and
administered the contracts in support of Operation Iraqi Freedom and Operation Enduring
Freedom.

   Use of Contracts to Provide Fuels in Support of the Warfighter. Objective: To determine
the extent to which contractors are providing fuels instead of the Defense Energy Supply Center;
how contract requirements, terms and conditions were developed; and the adequacy of cost
controls.

   Use of Other Transaction Authority for Prototypes. Objective: To determine whether the
Military Departments and Defense Agencies are properly using the other transactions for
prototypes to bring new contractors into the Department to support the Global War on Terror
efforts.

FIRST QUARTER FY 2009 START

   Contracting for Facilities Operations Support Services for Operation Iraqi Freedom
and Operation Enduring Freedom. Objective: To examine contracts and task orders for
facilities operations support services (housekeeping, trash/garbage removal, landscaping, etc.),
development of contract requirements, award of contracts and task orders, and the administration
of the contracts and task orders.

   Controls Over Contractor Common Access Cards in the U.S. European Command.
Objective: To evaluate the controls over the issuance, revocation, reverification, and recovery of
contractor common access cards in the European theater.

   Controls Over Unliquidated Obligations on U.S. Army Corps of Engineers Contracts
Supporting the Global War on Terror. Objective: To determine the amount of unliquidated
obligations on contracts and whether the U.S. Army Corps of Engineers has established adequate
management controls over the unliquidated obligations.




                                                5

Inspector General, Department of Defense
Inspector General, Department of Defense


   Management and Accountability of Class III Bulk JP-8 Fuel Supporting the U.S.
Central Command Operations in Qatar. Objective: To evaluate the management of Bulk
Class III JP-8 fuel operations in Qatar supporting U.S. Central Command Global War on Terror
missions.

   Medical Prime Vendor Contracts in Support of Operation Iraqi Freedom and
Operation Enduring Freedom. Objective: To examine contracts and task orders under the
Defense Supply Center-Philadelphia Medical Prime Vendor Program for terms and conditions,
price controls given increased demand, and the ability of contractors to provide supplies in a
timely manner to the warfighter.

  Private Security Contractors Use in Operation Iraqi Freedom. Objective: To determine
whether terms and conditions for private security services are clearly defined in contracts,
whether security services are performed in accordance with the requirements of the contract, and
whether oversight of security contracts is adequate.

   Use of Priority Air Cargo Transportation to Provide Materials and Supplies in Support
of Operation Iraqi Freedom and Operation Enduring Freedom. Objective: To evaluate how
the shipping requirement was determined in the award and terms of contracts and delivery orders
and associated costs for the use of priority air transportation.




                                               6

Inspector General, Department of Defense
Inspector General, Department of Defense


ONGOING PROJECTS

REPORTS PROJECTED THIRD QUARTER FY 2008
   Contingency Construction Contracting Procedures Implemented by the Joint
Contracting Command-Iraq/Afghanistan (D2007-D000LQ-0261.000). Objective: To
determine the efficiency of contingency construction contracting procedures implemented by the
Joint Contracting Command-Iraq/Afghanistan in the Afghanistan Area of Operations.
Specifically, we will review the effectiveness of practices related to solicitation, award, quality
assurance, oversight, and final acceptance of constructions projects.

   DoD Supplemental and Cost of War Execution Report Sections Pertaining to
Procurement and Research, Development, Test, and Evaluation Funds (D2006-D000AE-
0241.001). Objective: To determine how effectively the Office of the Secretary of Defense and
the DoD Components prepared the DoD Supplemental and Cost of War Execution Report for
procurement and research, development, test, and evaluation funds.

   DoD Use of Global War on Terror Supplemental Funding Provided for Procurement
and Research, Development, Test, and Evaluation (D2006-D000AE-0241.002). Objective:
To evaluate the adequacy of the DoD financial controls over use of Global War on Terror
supplemental funding provided for procurement and research, development, test, and evaluation.

   Internal Controls and Data Reliability in the Deployable Disbursing System (D2007-
D000FL-0252.000). Objective: To determine whether the internal controls over transactions
processed through the Deployable Disbursing System are adequate to ensure the reliability of the
data processed. The audit will include financial information processed by disbursing stations
supporting the Global War on Terror and will also include the recording of related obligations.
This audit is a follow up on our "Audit of Internal Controls Over Out-of-Country Payments,"
D2006-D000FL-0208.000.

   Summary of Issues Impacting Operations Iraqi Freedom and Enduring Freedom
Reported by Major Oversight Organizations Beginning FY 2003 Through FY 2007 (D2007-
D000XA-0249.000). Objective: To summarize contract, funds management, and other
accountability issues identified in audit reports and congressional testimonies that discuss
mission critical support to Operations Iraqi Freedom and Enduring Freedom.


REPORTS PROJECTED FOURTH QUARTER FY 2008
   Contracts for Supplies Requiring Use of Radio Frequency Identification (D2008-
D000AS-0022.000). Objective: To determine whether DoD Components are complying with
policies on radio frequency identification. Specifically, we will determine whether DoD
Components have prepared and implemented plans to use radio frequency identification.
Additionally, we will assess whether DoD contracts issued since January 1, 2005, include
requirements for using passive and active radio frequency identification tags and whether
contractors are complying with those requirements.

                                                 7

Inspector General, Department of Defense
Inspector General, Department of Defense


   Controls Over the Contractor Common Access Card Life Cycle (D2007-D000LA-
0199.001). Objective: To determine whether controls over Common Access Cards provided to
contractors are in place and work as intended. Specifically, we will determine whether DoD
officials issue Common Access Cards to contractors, verify the continued need for contractors to
possess Common Access Cards , and revoke or recover Common Access Cards from contractors
in accordance with DoD policies and procedures.

   Defense Hotline Allegations Concerning Contracts Issued by U.S. Army TACOM Life
Cycle Management Command to BAE Systems Land and Armaments, Ground Systems
Division (D2007-D000CK-0256.000). Objective: To review the allegations to the Defense
Hotline concerning contracts issued by U.S. Army TACOM Life Cycle Management Command
to BAE Systems Land and Armaments, Ground Systems Division. Specifically, we will
determine whether contract award and administrative procedures were in compliance with
Federal and DoD policy.

   Distribution of Funds and the Validity of Obligations for the Management of the
Afghanistan Security Forces Fund – Phase II (D2007-D000LQ-0161.001). Objective: To
determine whether the distribution of the $1.9 billion from the Afghanistan Security Forces Fund
complied with the 11 provisions of Public Law 109-234 and applicable appropriations law. In
addition, we will determine whether the Afghanistan Security Forces Fund was obligated in
accordance with legislative intent and applicable appropriations law.

    DoD Training for U.S. Ground Forces Supporting Operation Iraqi Freedom (D2007-
D000LH-0108.001). Objective: To determine whether U.S. Ground Forces supporting
Operation Iraqi Freedom are receiving training necessary to meet operational requirements. This
project is addressing the adequacy of equipment levels at Army and Marine Corps combat
training centers and mobilization stations for ground forces units deploying in support of
Operation Iraqi Freedom.

   Expeditionary Fire Support System and Internally Transportable Vehicle Programs
(D2008-D000AB-0091.000). Objective: To determine whether contract competition and
program administration for the United States Marine Corps Expeditionary Fire Support System
and Internally Transportable Vehicle were in accordance with the Federal Acquisition
Regulation and supporting DoD guidance.

   Funds Appropriated for Afghanistan and Iraq Processed Through the Foreign Military
Sales Trust Fund (D2007-D000FD-0198.000). Objective: To determine whether the funds
appropriated for the security, reconstruction, and assistance of Afghanistan and Iraq and
processed though the Foreign Military Sales Trust Fund are being properly managed.
Specifically, we will determine whether the transfer of appropriated funds from the Army’s
accounts into the Foreign Military Sales Trust Fund was properly authorized, accounted for, and
used for the intended purpose. We will also determine whether Foreign Military Financing funds
granted to Afghanistan and Iraq are properly accounted for and used for their intended purpose.
In addition, we will verify whether the appropriated funds are properly reported in DoD financial
reports.



                                               8

Inspector General, Department of Defense
Inspector General, Department of Defense


   Hiring Practices Used to Staff the Iraqi Provisional Authorities (D2007-D000LC-
0051.000). Objective: To evaluate the hiring practices that DoD used to staff personnel to the
provisional authorities supporting the Iraqi government from April 2003 to June 2004.
Specifically, we will determine the Process DoD used to assign personnel to the Office of
Reconstruction and Humanitarian Assistance and the Coalition Provisional Authority in Iraq.

   Joint Follow-on Evaluation of Equipment Status (D2008-D000LQ-0111.000). Objective:
To determine whether forces deployed in support of Operation Iraqi Freedom have the
equipment to complete their missions and to evaluate whether units completing combat missions
had the proper equipment in accordance with mission requirements.

   Marine Corps’ Management of the Recovery and Reset Programs (D2007-D000LD-
0129.000). Objective: To evaluate the effectiveness of the Marine Corps’ Recovery and Reset
Programs for selected equipment. Specifically, we will review how the Marine Corps met its
equipment requirements through the Reset and Recovery Programs, whether it effectively
repaired or replaced selected equipment, and whether the Marine Corps used funds for their
intended purpose.

   Military Construction Funds Related to the Global War on Terror (D2007-D000CK-
0201.000). Objective: To determine whether DoD Components followed requirements for using
operations and maintenance funds for Global War on Terror military construction. Specifically,
we will determine whether DoD followed proper procedures for administering, executing, and
reporting the use of operations and maintenance funds on Global War on Terror military
construction contracts.

   Procurement and Delivery of Joint Service Armor Protected Vehicles (D2007-D000CK-
0230.000). Objective: To determine whether the Mine Resistant Ambush Protected vehicle
program office is procuring armored vehicles in accordance with the Federal Acquisition
Regulation and DoD requirements. Specifically, we will review Mine Resistant Ambush
Protected program administration to determine whether the program office is taking appropriate
actions to accelerate vehicle delivery to users. An additional objective will be to review the
Services’ requirements for Mine Resistant Ambush Protected and High Mobility Multipurpose
Wheeled Vehicles.

   Procurement and Use of Nontactical Vehicles at Bagram Air Field (D2008-D000LQ-
0063.000). Objective: To determine the effectiveness of the process for procuring and leasing
nontactical vehicles at Bagram Air Field, Afghanistan. We will also review the cost of operating
and maintaining nontactical vehicles and determine whether the amount of use complies with
DoD guidance.

   Security Over Radio Frequency Identification Information (D2008-D000AS-0044.000).
Objective: To determine whether DoD implemented security controls to protect radio frequency
identification information. Specifically, we will assess the implementation and effectiveness of
those security controls over the information.




                                               9

Inspector General, Department of Defense
Inspector General, Department of Defense


   Small Arms Ammunition Fund Management in Support of the Global War on Terror
(D2008-D000FJ-0014.000). Objective: To determine whether the Military Departments
properly managed small arms ammunition funds in support of the Global War on Terror.
Specifically, we will determine whether financial management officials fully supported and
properly incurred obligations and expenditures. We will also determine whether funds for small
arms ammunition were accurately recorded in financial systems for reporting to the Office of the
Secretary of Defense.


REPORTS PROJECTED FY 2009
   Acquisition of Ballistic Glass Contracts for the High Mobility Multipurpose Wheeled
Vehicle Variants (D2008-D000CE-0187.000). Objective: To determine whether the award
and administration process of the High Mobility Multipurpose Wheeled Vehicle ballistic glass
contracts comply with the Federal Acquisition Regulation.

   Air Force Combat Search and Rescue Helicopter (D2008-D000AB-0133.000). Objective:
To determine whether changes to Combat Search and Rescue Helicopter Key Performance
Parameters were made in accordance with applicable DoD and Air Force acquisition guidelines.
Specifically, we will determine whether key performance parameter changes were properly
designated and appropriately vetted through the Joint Requirements Oversight Council. In
addition, we will determine whether key performance parameter changes will affect Air Force
special operations capabilities in the Global War on Terror.

  Air Force Contract Augmentation Program in Southwest Asia (D2008-D000JC-
0202.000). Objective: To evaluate controls over Air Force Contract Augmentation Program.
We will determine what contracts have been awarded, whether contracts were properly awarded,
whether contracted services were provided in accordance with the statement of work and
whether contract payments were appropriate.

   Assignment and Training of Contracting Officer’s Representatives at Joint Contracting
Command-Iraq/Afghanistan (D2008-D000JC-0203.000). Objective: To determine whether
personnel assigned as Contracting Officer’s Representatives to the Joint Contracting Command-
Iraq/Afghanistan have proper training and expertise to perform their duties.

   Class III Fuel Procurement and Distribution in Southwest Asia (D2008-D000JC-
0186.000). Objective: To determine whether fuel used for ground operations in Southwest Asia
to support Operations Iraqi Freedom and Enduring Freedom is procured and distributed
efficiently and effectively. Specifically, we will determine whether fuel is procured at fair and
reasonable prices, whether fuel is distributed economically and efficiently to operational
commands, and whether fuel supply points maintain accurate inventories.

   Control Over the Reporting of Transportation Costs in Support of the Global War on
Terror (D2008-D000FI-0083.000). Objective: To evaluate the effectiveness of controls over
the reporting of transportation costs related to the Global War on Terror.



                                               10

Inspector General, Department of Defense
Inspector General, Department of Defense


   Controls Over the Department of the Navy Military Payroll Disbursed in Support of the
Global War on Terror (D2008-D000FC-0189.000) Objective: To determine whether the
Department of the Navy is disbursing military payroll in support of the Global War on Terror in
accordance with established laws and regulations. Specifically, we will determine whether the
Department of the Navy maintains adequate support for payments related to deployments to an
active combat zone.

   Defense Emergency Response Fund for the Global War on Terror (D2008-D000FE-
0106.000). Objective: To determine if the Defense Emergence Response Fund is used as
intended and in adherence to the Office of Management and Budget guidance for the use of the
funds. We will also determine if DoD has the ability to track the use of the Defense Emergency
Relief Fund.

   Defense Logistics Agency Contracts for Combat Vehicle Parts in Support of the Global
War on Terror (D2008-D000FD-0214.000). Objective: To determine whether the Defense
Logistics Agency used appropriate and effective contracting procedures to provide to customers
the combat vehicle parts to support the Global War on Terror.

   Distribution of Funds and the Validity of Obligations for the Management of the
Afghanistan Security Forces Fund – Phase III (D2007-D000LQ-0161.002). Objective: To
determine whether organizations in Southwest Asia that the U.S. Central Command assigned
with the responsibility for managing the Afghanistan Security Forces Fund properly accounted
for the goods and services purchased for the Afghanistan Security Forces using the Afghanistan
Security Forces Fund and whether the goods and services were properly delivered to the
Afghanistan Security Forces.

   Marine Corps Implementation of the Urgent Universal Need Statement Process for
Mine Resistant Ambush Protected Vehicles (D2008-D000AE-0174.000). Objective: To
determine whether the Marine Corps decision making process responded appropriately and
timely to Urgent Universal Need Statements submitted by field commanders for Mine Resistant
Ambush Protected vehicles.

   Organic Ship Utilization in Support of the Global War on Terror (D2008-D000AB-
0193.000). Objective: To evaluate the effectiveness of policies and procedures used to ensure
that activated Government-owned and Government-chartered vessels are used to the maximum
extent prior to procuring commercial transportation to Southwest Asia.

   Price Reasonableness for Contracts at U.S. Special Operations Command (D2008-
D000CG-0123.000). Objective: To determine whether pricing of contracts at U.S. Special
Operations Command complied with Federal Acquisition Regulation requirements for
determining price reasonableness.

  War Reserve Materiel Contract (D2008-D000CK-0161.000). Objective: To determine
whether Air Force contracting officials managed and administered the DynCorp International
War Reserve Materiel contract in accordance with Federal and DoD contracting policies. .




                                              11

Inspector General, Department of Defense
Inspector General, Department of State


            INSPECTOR GENERAL, DEPARTMENT OF STATE


PLANNED PROJECTS 



THIRD QUARTER FY 2008 START
AUDIT

     Personal Security Detail Contracts – Blackwater (Iraq) (with the Special Inspector General 

     for Iraq Reconstruction) -- (Financial Related & Performance Audit) 

     New Embassy Compound Phase I (Performance Audit) 

     New Embassy Compound Phase II (Performance Audit) 



FOURTH QUARTER FY 2008 START
AUDIT

     Economic Support Fund – Afghanistan (Financial Related Audit)

MIDDLE EAST REGIONAL OFFICE

     Personal Security Detail Contracts – Dyncorp and Triple Canopy – Iraq (Performance
     Audit)
      •	 Kennedy Report on Worldwide Personal Protective Services – Private Security
          Contactors – Iraq (Program Evaluation)
      •	 Role, Staffing, and Effectiveness of Diplomatic Security – Iraq (Performance Audit)


FIRST QUARTER FY 2009 START
AUDIT

     Property Inventory and Accountability at Embassy Baghdad (Performance Audit)
     (concurrent w/ Office of Inspections Inspection of Embassy Baghdad)

MIDDLE EAST REGIONAL OFFICE

     Effectiveness of Worldwide Personal Protective Services contractors in Jerusalem
     Emergency Action Plan of Embassies Baghdad and Kabul (Program Evaluation)




                                              12

Inspector General, Department of State
Inspector General, Department of State


SECOND QUARTER FY 2009 START
AUDIT

     Personal Security Detail Contracts – Dyncorp and Triple Canopy (Iraq) (Financial Related)

MIDDLE EAST REGIONAL OFFICE

     Personal Security Detail (Worldwide Personal Protective Services) Contracts – Blackwater,
     Dyncorp, Triple Canopy Afghanistan
      •	 Kennedy Report on Worldwide Personal Protective Services – Private Security
          Contactors – Afghanistan
      •	 Role, Staffing, and Effectiveness of Diplomatic Security – Afghanistan (Financial
          Related and Performance Audit)


THIRD QUARTER FY 2009 START
INSPECTION

     De-mining Programs in Iraq and Afghanistan (Program Evaluation)


FOURTH QUARTER FY 2009 START
AUDIT

     Economic Support Funds – West Bank 

     Logistics Civil Augmentation Program Task Order #100 


MIDDLE EAST REGIONAL OFFICE

     Refugee Assistance and Human Rights in Afghanistan (Performance Audit) 

     Governing Justly and Democratically in Afghanistan (Performance Audit) 

     Embassy Baghdad/DoD Transition Plan (Joint with Inspector General, DoD) (Program

     Review) 





                                             13

Inspector General, Department of State
Inspector General, Department of State


FUTURE STARTS
IRAQ

     Economic Support Funds – Iraq
     Verbal Notices to Proceed (Task Orders) -- Worldwide Personal Protective Services
     Diplomatic Security Armored Vehicle Procurement
     Local Security Guard Program
     Public Diplomacy Programs in Iraq
     Democracy and Education Programs in Iraq
     Follow-up Evaluations of Iraq Police Training
     Follow-up Evaluations of Iraq Rule-of-Law Programs
     Follow-up Evaluation of Anticorruption Programs in Iraq
     Role, Function, and Effectiveness of Regional Embassy Offices in Iraq
     Rightsizing (Staffing) of Embassy Baghdad
     Follow-up on Role and Effectiveness of Provincial Reconstruction Teams in Iraq
     Management of Iraq Security Programs
     Review of Anti-Corruption Training and Development Programs in Iraq
     Follow –up Review of Rule of Law Programs in Iraq
     Review of Communications Security at Embassy Baghdad
     Democracy Building: National Endowment for Democracy
     Implementation of International Cooperative Administrative Support Services – Iraq

AFGHANISTAN

     Public Diplomacy Programs in Afghanistan
     Middle East Partnership Initiative
     Follow-up Evaluation of Afghanistan Police Training
     Follow-up Evaluation of Afghan Rule-of-Law Programs
     Effectiveness of Counter Narcotic Programs in Afghanistan
     Effectiveness of Security Assistance in Afghanistan
     Management of Afghanistan Security Programs
     Implementation of International Cooperative Administrative Support Services –
     Afghanistan

PAKISTAN

     Democracy and Education Programs in Pakistan 

     Federally Administered Tribal Areas in Pakistan 

     Effectiveness of Counter-narcotics Programs in Pakistan 

     Effectiveness of Security Assistance in Pakistan 


OTHER

     Middle East Partnership Initiative 

     Democracy and Education Programs in Lebanon 

     Security Assistance in Lebanon 


                                             14

Inspector General, Department of State
Inspector General, Department of State


ONGOING PROJECTS

     Iraqi Special Immigrant VISA (Special Immigrant Visa) (Program Evaluation)
     Iraqi Refugee Processing (Program Evaluation)




                                            15

Inspector General, Department of State
Inspector General, U.S. Agency for International Development


               INSPECTOR GENERAL, U.S. AGENCY FOR
                  INTERNATIONAL DEVELOPMENT


PLANNED AUDITS – IRAQ 



PERFORMANCE AUDITS
   USAID/Iraq’s Community Stabilization Program. Objectives: (1) Is USAID/Iraq’s
Community Stabilization Program achieving its intended result with regard to activities in the
community infrastructure and essential services component? (2) How has USAID/Iraq designed
and implemented its Community Stabilization Program to help ensure that Iraqis continue to
benefit from its activities after USAID involvement has ended?
(Completed. Audit Report No. E-267-08-001-P, issued March 18, 2008)

   USAID/Iraq’s Management of the Marla Ruzicka Iraqi War Victims Fund. Objective:
Is USAID/Iraq complying with provisions contained in public laws to help ensure that funds
appropriated for the Marla Fund are used as intended?
(Completed. Audit Report No. E-267-08-002-P, issued April 3, 2008)

  USAID/Iraq’s Community Action Program II. Objectives: (1) Is USAID/Iraq accurately
measuring the jobs created by its community action program activities? (2) Are USAID/Iraq’s
community action program activities achieving intended results and what has been the impact?

   USAID/Iraq’s Monitoring and Evaluation Performance Program. Objectives: (1) Is the
Monitoring and Evaluation Performance Program, Phase II program producing monitoring and
evaluation reports that are timely, relevant, and useful for performance management? (2) Is
USAID/Iraq using Monitoring and Evaluation Performance Program, Phase II program results to
manage its portfolio?

   USAID/Iraq’s Management of Its Official Vehicle Fleet. Objective: Has USAID/Iraq
acquired, utilized, and disposed of its official vehicles in accordance with USAID’s Automated
Directives System?

  Followup Audit of USAID/Iraq’s Local Governance Activities. Objective: Are
USAID/Iraq’s local governance activities achieving intended results and what has been the impact?

    USAID/Iraq’s National Capacity Development Program. Objective: Is USAID/Iraq’s
national capacity development program achieving its intended results and what has been the impact
of this program?




                                              16

Inspector General, U.S. Agency for International Development
Inspector General, U.S. Agency for International Development


   Followup Audit of Provincial Reconstruction Teams in Iraq. Objectives: (1) Are
USAID/Iraq provincial reconstruction team representatives performing their roles as activity
managers as intended? (2) How is USAID/Iraq assisting the provincial reconstruction teams in
the transition to traditional USAID activities?


   USAID/Iraq’s Agribusiness Program. Objective: Is USAID/Iraq’s agribusiness program
achieving intended results and what has been the impact?

   USAID/Iraq’s Provincial Economic Growth Program. Objectives: (1) Have
USAID/Iraq’s provincial economic growth activities created an enabling environment for business
operations and what has been the impact? (2) Are USAID/Iraq’s grant activities under its provincial
economic growth program achieving intended results and what has been the impact?

FINANCIAL AUDITS
Objectives: Financial audit objectives include determining whether (1) costs incurred and billed
by the recipient are allowable, allocable and reasonable, (2) the recipient’s internal control
structure is adequate, and (3) the recipient complies with agreement terms and applicable laws
and regulations. Audits are performed by the Defense Contract Audit Agency at the request of
OIG, who then reviews and issues the reports to USAID with applicable recommendations. The
following financial audits are planned for FY 2008:

   •	 Direct Costs Incurred and Billed by Research Triangle Institute under 

      Contract No. GHS-I-04-03-00028-00 from April 26, 2005 to December 

      31, 2006 

      (Completed. OIG Report No. E-267-08-001-D, issued October 4, 2007) 


   •	 Costs Incurred and Billed by Sallyport Global Services Ltd. under its 

      Subcontracts with The Louis Berger Group, Inc. under USAID Contract 

      Nos. 267-C-00-04-00417-00 for the Period September 27, 2004 through 

      September 30, 2005 and 267-C-00-04-00435-00 for the Period August 1, 

      2005 through March 31, 2007 

      (Completed. OIG Report No. E-267-08-002-D, issued December 12, 2007) 


   •	 Costs Incurred and Billed by America’s Development Foundation under 

      Contract No. GEW-C-00-04-00001-00 from October 1, 2006 through June 

      30, 2007 

      (Completed. OIG Report No. E-267-08-003-D, issued January 23, 2008) 


   •	 Costs Incurred and Billed by Creative Associates International, Inc. under 

      Contract No. EPP-C-00-04-00004-00 from July 1, 2005 through February 

      28, 2007 

      (Completed. OIG Report No. E-267-08-004-D, issued February 4, 2008) 




                                              17

Inspector General, U.S. Agency for International Development
Inspector General, U.S. Agency for International Development


   •	 Costs Incurred and Billed by Management Systems International under
      USAID Contract No. AEP I-00-00-00024-00, Task No. 08, from June 26,
      2003 through May 31, 2005
      (Completed. OIG Report No. E-267-08-005-D, issued February 4, 2008)

   •	 Costs Incurred and Billed by Bechtel National, Inc. under Contract Nos.
      EEE-C-00-03-00018-00 (Phase I) and SPU-C-00-04-00001-00 (Phase II)
      from November 1, 2006 to September 30, 2007
      (Completed. OIG Report No. E-267-08-006-D, issued February 12, 2008)

   •	 Cost Incurred and Billed by IntraHealth International, Inc. under its
      Subcontract No. 15-330-0208954 with Research Triangle Institute
      Contract No. GHS-1-04-03-00028-00 for the Period April 26, 2005
      through December 31, 2006
      (Completed. OIG Report No. E-267-08-007-D, issued February 24, 2008)

   •	 Costs Incurred and Billed by International Business and Technical
      Consultants, Inc. (IBTCI) under Contract No. 267-C-00-05-00508-00
      from January 1, 2006 through December 31, 2006
      (Completed. OIG Report No. E-267-08-008-D, issued March 6, 2008)

   •	 Costs Incurred and Billed by BearingPoint, Inc. under Contract No. 267-
      C-00-04-00405-00 for the Period October 1, 2006 through September 30,
      2007
      (Completed. OIG Report No. E-267-08-009-D, issued April 15, 2008)

   •	 Costs Incurred and Billed by Agricultural Cooperative Development
      International/Volunteers in Overseas Cooperative Assistance under
      USAID Cooperative Agreement No. AFP-A-00-03-00003 for the Period
      August 1, 2004 through March 31, 2007

   •	 Costs Incurred and Billed by the International Foundation for Election
      Systems through the Consortium for Election and Political Process
      Strengthening under [1] USAID Agreement No. 267-A-00-04-00405-00
      for the period October 1, 2005 through June 30, 2007, [2] USAID
      Agreement No. AFP-A-00-04-00014-00 for the period July 9, 2004
      through June 30, 2006, and [3] USAID Agreement No. REE-A-00-04-
      00050-00 for the period July 26, 2004 through July 31, 2006

   •	 Costs Incurred and Billed by America’s Development Foundation under
      USAID Contract No. GEW-C-00-04-00001-05 for the Period October 1,
      2006 through June 30, 2007

   •	 Costs Incurred and Billed by International Relief & Development, Inc.
      under USAID Agreement No. AFP-A-00-03-0002-00 for the Period
      November 1, 2005 through March 31, 2007

                                              18

Inspector General, U.S. Agency for International Development
Inspector General, U.S. Agency for International Development



   •	 Costs Incurred and Billed by Cooperative Housing Foundation
      International under USAID Agreement No. AFP-A-00-0300004-00 for the
      Period August 1, 2005 through April 30, 2007 and under USAID
      Agreement No. 267-A-00-06-00507-00 for the Period September 30, 2006
      through September 30, 2007

   •	 Costs Incurred and Billed by Mercy Corps under USAID Agreement No.
      AFP-A-00-03-00001-00 for the Period August 1, 2004 through March 31,
      2007

   •	 Costs Incurred and Billed by Save the Children Federation under USAID
      Agreement No. AFP-A-00-03-00005-00 for the Period August 1, 2004
      through April 1, 2006

   •	 Agreed-upon Procedures Review of Direct and Indirect Costs Incurred by
      Research Triangle Institute under USAID Contract Nos. EDG-C-00-
      00010-00, 267-C-00-05-00505-00, and GHS-I-04-03-00028-00 Relating
      to Payments to Business Systems House during the Period March 26, 2003
      through September 30, 2007

   •	 Costs Incurred and Billed by International Relief & Development, Inc.
      under USAID Agreement No. 267-A-00-06-00503-00 for the Period May
      29, 2006 through September 30, 2007

   •	 Costs Incurred and Billed by BearingPoint, Inc. under USAID Contract
      No. 267-C-00-04-00405-00 for the Period August 1, 2005 through
      September 30, 2006

   •	 Costs Incurred and Billed by Louis Berger Group/The Services Group,
      Inc. under USAID Contract No.267-C-00-04-00435-06 for the Period
      October 1, 2006 through September 30, 2007

   •	 Costs Incurred and Billed by Management Systems International under
      USAID Contract No. AEP-I-01-05-00221-00 for the Period July 27, 2006
      through September 30, 2007

   •	 Agreed-Upon Procedures Review of Requests for Equitable Adjustments
      Related to Excusable Delays by Bechtel National, Inc. under USAID
      Contract No. SPU-C-00-04-00001-00 for the Period January 5, 2004
      through March 31, 2007 and Contract No. EEE-C-00-03-00018-00 for the
      Period April 17, 2003 through February 28, 2006

   •	 Costs Incurred and Billed by International Resources Group under USAID
      Contract No. 517-C-00-04-00106-00 for the Period November 1, 2006
      through December 31, 2007

                                              19

Inspector General, U.S. Agency for International Development
Inspector General, U.S. Agency for International Development



   •	 Costs Incurred and Billed by Research Triangle Institute under USAID
      Contract No. 267-C-00-05-00505-00 for the Period January 1, 2007
      through December 31, 2007

   •	 Costs Incurred and Billed by Agricultural Cooperative Development
      International/Volunteers in Overseas Cooperative Assistance under
      USAID Cooperative Agreement No. AFP-A-00-03-00003 for the Period
      August 1, 2004 through March 31, 2007

   •	 Costs Incurred and Billed by Louis Berger Group, Inc. for the Period May
      14, 2007 through May 13, 2008

   •	 Costs Incurred and Billed by the International Foundation for Election
      Systems through the Consortium for Election and Political Process
      Strengthening under USAID Agreement No. 267-A-00-04-00405-00 from
      July 1, 2007 through June 30, 2008

   •	 Costs Incurred and Billed by International Business & Technical
      Consultants, Inc. under USAID Contract No. 267-C-00-05-00508-00 for
      the Period January 1, 2007 through December 31, 2007


PLANNED PROJECTS - AFGHANISTAN


PERFORMANCE AUDITS

   USAID/Afghanistan’s Agriculture, Rural Investment and Enterprise Strengthening
Program. Objective: Was USAID/Afghanistan’s Agriculture, Rural Investment and Enterprise
Strengthening Program achieving its intended results and what has been the impact?
(Completed. Audit Report No. 5-306-08-001-P, issued January 22, 2008)

  USAID/Afghanistan’s Alternative Development Program – Southern Region. Objective:
Did USAID/Afghanistan’s Alternative Development Program/South achieve planned results, and
what has been the impact?
(Completed. Audit Report No. 5-306-08-003-P, issued March 17, 2008)

   USAID/Afghanistan’s Accelerating Sustainable Agriculture Program. Objective: Did
USAID/Afghanistan’s Accelerating Sustainable Agriculture Program achieve planned results,
and what has been the impact?

  USAID/Afghanistan’s Technical Assistance Services to Implement the Small and
Medium Sized Enterprise Development Activity in Afghanistan. Objective: Did
USAID/Afghanistan’s Technical Assistance Services to Implement the Small and Medium Sized
Enterprise Development Activity achieve planned results, and what has been the impact?

                                              20

Inspector General, U.S. Agency for International Development
Inspector General, U.S. Agency for International Development



  USAID/Afghanistan’s Higher Education Project. Objective: Did USAID/Afghanistan’s
Higher Education Project achieve planned results, and what has been the impact?

   USAID/Afghanistan’s Local Governance and Community Development Project in
Northern and Western Regions of Afghanistan. Objective: Did USAID/Afghanistan’s Local
Governance and Community Development Project achieve planned results, and what has been
the impact?

  USAID/Afghanistan’s Building Capacity Program. Objective: Did USAID/Afghanistan’s
Building Capacity Program achieve planned results, and what has been the impact?

   USAID/Afghanistan’s School and Health Clinic Buildings Completed Under the Schools
and Clinics Construction and Refurbishment Program. Objective: Did
USAID/Afghanistan’s School and Health Clinic Buildings Completed under the Schools and
Clinics Construction and Refurbishment Program achieve planned results, and what has been the
impact?

   Selected Activities Funded Under USAID/Afghanistan’s $1.4 Billion Infrastructure
Rehabilitation Program. Objective: Did Selected Activities Funded under
USAID/Afghanistan’s $1.4 billion Infrastructure Rehabilitation Program achieve planned results,
and what has been the impact?

FINANCIAL AUDITS
Objectives: Financial audit objectives include determining whether (1) costs incurred and billed
by the recipient are allowable, allocable and reasonable, (2) the recipient’s internal control
structure is adequate, and (3) the recipient complies with agreement terms and applicable laws
and regulations. Audits are performed by the Defense Contract Audit Agency or non-Federal
auditors. The OIG reviews and issues the reports to USAID with applicable recommendations.
The following financial audits are planned for FY 2008:

   •	 Local Costs incurred by the Louis Berger Group, Inc. to Implement the 

      Rehabilitation of Economic Facilities and Services Program, 

      USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the Period 

      from April 1, 2007, to June 30, 2007 

      (Completed. OIG Report No. 5-306-08-001-N, issued November 27, 2007)


   •	 Closeout Audit of the Project Titled “Business Advisory Services to Small 

      and Medium-Sized Enterprises (SMEs) in Afghanistan,” 

      USAID/Afghanistan Cooperative Agreement No. 306-A-00-04-00570-00, 

      Managed by Acap Management Limited, for the Period from September 

      30,2004, to March 29, 2007 

      (Completed. OIG Report No. 5-306-08-019-R, issued April 25, 2008)




                                              21

Inspector General, U.S. Agency for International Development
Inspector General, U.S. Agency for International Development


   •	 Costs Incurred by DEG (Deutsche Ivestitions Entwicklungsgesellschaft
      mbH), USAID/Afghanistan Agreement No. 306-A-00-05-00512-00, for
      the Period from February 3, 2005, to August 2, 2008

   •	 Costs incurred by Bearing Point, Inc. to Implement the Economic
      Governance in Afghanistan (BP I), USAID/Afghanistan Contract No. 306-
      C-00-03-00001-00, for the Period from November 17, 2002, to December
      15, 2005

   •	 Costs incurred by PTS (Program-e Tahkim-e Solh) to Implement the
      National Commission For Peace and Reconciliation, USAID/Afghanistan
      Agreement No. 306-PIL-07-3060004-00, for the Period from April 1,
      2007, to March 31, 2008

   •	 Costs incurred by Bearing Point, Inc. to Implement the Strengthening
      Private Sector through Capacity Building (BP III), USAID/Afghanistan
      Contract No. GEG-I-00-04-00004-00, for the Period from September 26,
      2005, to December 31, 2007

   •	 Costs incurred by AEAI-Advance Engineering Associates, International to
      Implement the Afghanistan Energy Assistance Project,
      USAID/Afghanistan Contract No. EPP-I-OO-03-00004-00, for the Period
      ended December 31, 2007

   •	 Quarterly Audits of Local Costs incurred by the Louis Berger Group, Inc.
      to Implement the Afghanistan Infrastructure Reconstruction Program
      (AIRP), USAID/Afghanistan Contract No. 306-I-00-06-00517-00


PLANNED PROJECTS – REST OF ASIA


PERFORMANCE AUDITS
   USAID/Indonesia’s Tsunami-Related Housing Construction Activities Implemented by
Cooperative Housing Foundation International. Objective: Were USAID/Indonesia’s
tsunami-related housing construction activities being implemented by the Cooperative Housing
Foundation International (CHF) achieving planned results?
(Completed. Audit Report No. 5-497-08-002-P, issued January 31, 2008)

  USAID/Pakistan’s Education Sector Reform Assistance Program. Objective: Did
USAID/Pakistan’s Education Sector Reform Assistance program achieve intended results and
what has been the impact?
(Completed. Audit Report No. 5-391-08-004-P, issued March 28, 2008)



                                              22

Inspector General, U.S. Agency for International Development
Inspector General, U.S. Agency for International Development


   USAID/India’s Greenhouse Gas Pollution Prevention Project. Objective: Did
USAID/India’s Greenhouse Gas Pollution Prevention Project achieve planned results, and what
has been the impact?

   USAID/Mongolia’s Economic Policy Reform and Competitiveness Project. Objective:
Did USAID/Mongolia’s Economic Policy Reform and Competitiveness Project achieve planned
results, and what has been the impact?

   USAID/Nepal’s Health Program. Objective: Did USAID/Nepal’s Health Program achieve
planned results, and what has been the impact?

   Critical USAID/Philippines’ Activities under its Growth with Equity in Mindanao II
Program Implemented by Louis Berger Group, Inc. Objective: Did Critical
USAID/Philippines” Activities under its Growth with Equity in Mindanao II Program achieve
planned results, and what has been the impact?


FINANCIAL AUDITS
Objectives: Financial audit objectives include determining whether (1) costs incurred and billed
by the recipient are allowable, allocable and reasonable, (2) the recipient’s internal control
structure is adequate, and (3) the recipient complies with agreement terms and applicable laws
and regulations. Financial audits are conducted primarily of non-U.S. based organizations
throughout the rest of Asia by non-Federal auditors. Non-U.S. recipients are required to have
financial audits done if they spend more than $300,000 of USAID funds during their fiscal year.
Financial audit reports conducted by non-Federal auditors are reviewed by the OIG office in
Manila, Philippines, and the reports transmitted with applicable recommendations to the
responsible USAID mission in the region. OIG expects to issue over 30 financial audit reports to
USAID missions in the region, in addition to Iraq and Afghanistan, during FY 2008.




                                              23

Inspector General, U.S. Agency for International Development
Special Inspector General for Iraq Reconstruction


                  SPECIAL INSPECTOR GENERAL FOR
                       IRAQ RECONSTRUCTION


PLANNED PROJECTS 



THIRD QUARTER FY 2008 START
   Follow-on Review of Iraq Security Forces Strength Accounting Methodologies,
Including Use of Automated Systems (8024).

   Follow-on Review of the Transition of Iraq Reconstruction Projects to the Government
of Iraq (8022).

   Iraq Reconstruction Management System (8027).

   Progress and Plans to Transition Infrastructure Development for Iraqi Security Forces
to the Iraqi Government (8026).

   Reconstruction Contracts/Task Orders Terminated for Convenience or Default (8020)
(follow-on to 7029).

  Survey of Department of State and U.S. Agency for International Development
Contracts and Grants for Democracy Building Projects in Iraq (8025).

   Survey of Overall Economic Support Fund Programs Management and Expenditures
(8021).

   Triple Canopy Private Security Contract – Department of State (8028). Note:
Assignment expected to identify agency unique focus on security contracting issues related to
Iraq reconstruction under Section 842 legislation as well as identify issues that may require more
in-depth audit focus on a cross-agency basis once results of this review are considered along with
results from other ongoing reviews.

START (TO BE DETERMINED)
  Assessing Progress, Trends, and Cross-Program Coordination Related to Economic
Development in Iraq (include DoD economic development efforts).

   Individual U.S. Agency for International Development Democracy Building Program
(Program Effectiveness Reviews). Placeholder for potential future program review of
individual democracy building programs that may be identified in ongoing survey of Department
of State and U.S. Agency for International Development contracts and grants management of
democracy building programs related to Iraq reconstruction (see project code 8025)

                                              24

Special Inspector General for Iraq Reconstruction
Special Inspector General for Iraq Reconstruction



   Iraq Related Operating Expenses of U.S. Agencies Supporting Iraq Reconstruction

   Ministerial Capacity Development Follow-on.

  Progress in Improving Infrastructure Security Across Key Sectors (oil, electricity,
water, sewer, etc.).

   Provisional Reconstruction Teams/Provisional Reconstruction Teams Follow-on

   Selected Commander Emergency Response Program Contracts. (Placeholder for
individual audits of selected contracts related to construction and on-construction projects

   Selected Gulf Region Division Economic Support Fund Contracts. (Placeholder—
priorities TBD based on results of project code 8025)

   Selected Iraq Security Forces Fund Contracts. (Placeholder—priorities TBD based on
other ongoing Iraq Security Forces Fund Contract work)

   Selected Programs’ Cash Controls and Cash Payments

   Selected Security Contracts and Subcontracts. (Placeholder pending developing of listing
of contracts and subcontracts to develop a sample of contracts and subcontracts to review)

   Selected U.S. Agency for International Development Economic Support Fund Contracts.
(Placeholder—priorities TBD based on results of project code 8025)

   Survey of Present Use of Sole Source and Limited Competition in Contracting.

   Triple Canopy Private Security Contracts-DoD. Note: Assignment expected to identify
agency unique focus on security contracting issues under Section 842 legislation related to Iraq
reconstruction as well as identify issues that may require more in-depth audit focus on a cross-
agency basis once results of this review are considered along with results from other ongoing
reviews.

   Washington International and Black and Veatch Contracts—Water Sector.




                                              25

Special Inspector General for Iraq Reconstruction
Special Inspector General for Iraq Reconstruction


ONGOING PROJECTS

   Aegis Private Security Contract (8017). Note: Assignment is expected to be used to
identify DOD/GRD unique security contracting and subcontracting issues that will help frame
future security contracting reviews, particularly at the subcontractor level.

  First 100 Audit Reports—Capping Report.

   Joint SIGIR Department of State Inspector General Review of Spending Under
Blackwater Contracts (7018).

  Spending and Performance Under Development Alternatives Inc. (DAI) Contracts –
Economic Development (7026).

  Spending and Performance Under KBR Contracts – Oil Sector (8003).

   Spending of United States Government Funds in Support of Iraq Reconstruction:
Fluor-AMEC Joint Venture in the Electric and Public Works/Water Sectors (7022).

  Spending of United States Government Funds in Support of Iraq Reconstruction:
Research Triangle Institute (7023).

  Spending of United States Government Funds Under Parsons, Inc., Iraq Reconstruction
Contracts (S&J) (8006).

   Survey of U.S. Government Contracts Related to the Performance of Security Functions
in Iraq (8016). Note: Assignment expected to lead to fuller identification of contractors and
subcontractors—and data needed to identify individual potential contract audits to be done under
the Section 842 legislation related to Iraq reconstruction—as well as individual reviews of
selected program and policy issues as may be required.




                                              26

Special Inspector General for Iraq Reconstruction
U.S. Army Audit Agency


                          U.S. ARMY AUDIT AGENCY 



PLANNED PROJECTS 



THIRD QUARTER FY 2008 START
   Army Reserve Post - Mobilization Training (A-2008-FFS-0504.000). Objective: (1) Are
post-mobilization training requirements adequately identified and executed for the Army
Reserve? (2) Are all necessary unit and individual training requirements identified and
completed prior to deployment? (3) Did post-mobilization training requirements unnecessarily
duplicate pre-mobilization training?

  Contracting Operations at the Joint Contracting Command - Iraq/Afghanistan – Kabul
(A-2008-ALL-0401.000). Objective: Determine if goods and services acquired under contract
were properly justified, awarded, and administered.

   Follow up Audit of Logistics Civil Augmentation Program III Audits (A-2008-ALL-
0321.000). Objective: Determine if the Army implemented agreed to recommendations and
corrected the problems identified in the previous audit.

   Long Lead Items for Reset (A-2008-ALM-0102.000). Objective: Are long lead items
requirements valid and aimed at obtaining materiel just in time to meet the Army’s needs?

   National Guard Post - Mobilization Training (A-2008-FFS-0505.000). Objective:
(1) Are post-mobilization training requirements adequately identified and executed for the
National Guard? (2) Are all necessary unit and individual training requirements identified and
completed prior to deployment? (3) Did post-mobilization training requirements unnecessarily
duplicate pre-mobilization training?

  Sustainment of Left Behind Equipment (A-2008-ALM-0247.000). Objective: Did the
Army effectively and efficiently manage accountability and maintenance of its Continental
United States left behind equipment?


FOURTH QUARTER FY 2008 START
  Class V Retrograde Operations (A-2008-ALL-0397.000). Objective: (1) Determine if the
Army has adequate processes and procedures in place to properly retrograde ammunition from
Southwest Asia. (2) Determine if the Army has adequate accountability and visibility over
ammunition.




                                              27

U.S. Army Audit Agency
U.S. Army Audit Agency


   Contracting Operations at the Joint Contracting Command - Iraq/Afghanistan –
Fallujah (A-2008-ALL-0400.000). Objective: Determine if goods and services acquired under
contract were properly justified, awarded, and administered.

   Controls Over Logistics Civil Augmentation Program - White Property (A-2008-ALL-
0398.000). Objective: Determine if the Logistics Civil Augmentation Program contractor
properly managed and accounted for government acquired property.

   Controls Over Vendor Payments – Kuwait (A-2008-ALL-0501.000). Objective: Evaluate
the controls over vendor payments made on contracts awarded in Kuwait.

   Housing Contracts- Area Support Group – Kuwait (A-2008-ALL-0403.000). Objective:
(1) Determine whether the housing program in Kuwait is properly managed. (2) Determine if
property or assets provided by the Government and acquired by the contractor are adequately
managed.

   Managing Reset, U.S. Army Pacific (A-2008-FFP-0506.000). Objective: Evaluate
development and execution of reset requirements.

   Retrograde Exit Strategy (A-2008-ALL-0402.000). Objective: Evaluate the Army’s exit
strategy to determine if high volume equipment and supply retrograde operations were
adequately planned and executable for Southwest Asia.


FIRST QUARTER FY 2009 START
   Single Channel Ground and Airborne Radio System Requirements (A-2008-ALA-
0468.000). Objective: Determine the proper alignment of Single Channel Ground and Airborne
Radio System requirements to short-term needs; and modernization plans to transition to the
Joint Tactical Radio System.


SECOND QUARTER FY 2009 START
    Controls Over Vendor Pay - Joint Contracting Command (Iraq) (A-2008-ALL-
0399.000). Objective: Evaluate the controls over vendor payments made on contracts awarded
in Iraq.

   Government Purchase Card Program in Southwest Asia. Objective: Evaluate the
effectiveness of management controls over the government purchase card program. Specifically,
determine if use of purchases cards were in accordance with established guidance, and goods and
services acquired were adequately accounted for.

   Information Assurance and Infrastructure in Southwest Asia. Objective: Determine
whether the Army’s controls and procedures protect and defend the integrity, confidentiality and
availability of information and information systems during a contingency operation.



                                               28

U.S. Army Audit Agency
U.S. Army Audit Agency


  Logistics Civil Augmentation Program Operations IV in Support of Operation
Enduring Freedom. Objective: To determine if services awarded under Logistics Civil
Augmentation Program IV in Afghanistan were managed in a reasonable and cost-effective
manner.

   Logistics Civil Augmentation Program Operations IV in Support of Operation Iraqi
Freedom. Objective: To determine if services awarded under Logistics Civil Augmentation
Program IV in Iraq were managed in a reasonable and cost-effective manner.

   Requirements Validation for Continental United States Based Mobilized Soldiers
(A-2008-FFS-0443.000). Objective: (1) Determine if Soldiers mobilized to support
contingency operations outside of theater continue to have valid mission essential requirements.
(2) Determine the force structure impacts of the continued use of Soldiers mobilized to support
contingency operations outside of theater operations.

   Reserve Component Mobilization Strategy. Objective: Is the Reserve Component training
strategy viable to meet Army Force Generation goals and the 12 month mobilization limitations?

   Retrograde Exit Strategy – Continental United States. Objective: Evaluate the Army's
exit strategy to determine if high volume equipment and supply retrograde operations were
adequately planned and executable for Southwest Asia.

   Transition from Logistics Civil Augmentation Program Operations to Sustainment
Contracts – Iraq. Objective: Determine if the Army implemented best business practices to
transition work performed under the Logistics Civil Augmentation Program contract to
sustainment contracts.

  Unit Training to Defeat Improvised Explosive Devices (A-2008-FFF-0081.000).
Objective: Are units conducting appropriate training to counter the Improvised Explosive
Devices threat?

    Use of Non-Tactical Vehicles – Iraq. Objective: Determine if the Army effectively utilized
its non-tactical vehicle fleet in a contingency environment.




                                               29

U.S. Army Audit Agency
U.S. Army Audit Agency


ONGOING PROJECTS 



REPORTS PROJECTED THIRD QUARTER FY 2008
   Accounting for Seized and Developmental Fund-Iraq Fund Balances (A-2007-FFM-
0882.000). Objective: (1) What are the residual balances for seized and Developmental Fund-
Iraq funds? (2) Are the balances reasonable and ready for transfer?

   Advanced Training for Explosive Ordnance Disposal Soldiers (A-2008-FFD-0098.000).
Objective: (1) Has Improvised Explosive Device defeat methods been fully integrated into
advanced training for Explosive Ordnance Disposal Soldiers? (2) Has training for new
equipment fielded during OIF/OEF been fully integrated into advanced training for Explosive
Ordnance Disposal Soldiers?

   Battle Loss Computations (A-2007-ALM-0305.000). Objective: Did the Army properly
identify and adjust requirements and funding to replace Operational losses?

   Billing for Container Detention Penalties (A-2007-ALR-0259.002). Objective: Are
container detention charges relating to the Global War on Terror billed to the responsible
activity?

   Body Armor Requirements (A-2007-FFD-0067.000). Objective: (1) Has the Army
established adequate quantitative requirements for the procurement of body armor? Does the
Army have an adequate fielding plan for body armor?

   Contracting Operations at the Joint Contracting Command - Iraq/Afghanistan –
Baghdad (A-2007-ALL-0887.001). Objective: Determine if goods and services acquired under
contract were properly justified, awarded, and administered.

   Contracting Operations at the Joint Contracting Command - Iraq/Afghanistan –
Victory (A-2007-ALL-0887.002). Objective: Determine if goods and services acquired under
contract were properly justified, awarded, and administered.

  Contract Operations U.S. Army Accessions Command -Southwest Asia-Kuwait (A-2007-
ALL-0329.000). Objective: (1) Evaluate the effectiveness of contracting operations at
U.S. Army Contracting Command Southwest Asia-Kuwait. (2) Determine whether contracting
operations were performed in accordance with appropriate laws and regulations.

   Followup Audit of Asset Visibility and Container Management (A-2007-ALL-0081.002).
Objective: Determine if the U.S. Central Command implemented agreed to recommendations
and fixed the problems identified in the previous audit report.

  Management and Use of Contractor Acquired Property Under the Logistics Civil
Augmentation Program Contract - Power Generators (A-2007-ALL-0212.001). Objective:
Determine if power generators (property) acquired were effectively managed and used under the
Logistics Civil Augmentation Program contract.

                                               30

U.S. Army Audit Agency
U.S. Army Audit Agency


   Management of Shipping Containers in Southwest Asia – Afghanistan (A-2007-ALL-
0081.005). Objective: Determine if the Army maintained adequate visibility over shipping
containers to, within, and from the Southwest Asia Theater of Operations.

  Management of Shipping Containers in Southwest Asia – Continental United States
(A-2007-ALL-0081.006). Objective: Determine if the Army maintained adequate visibility
over shipping containers to, within, and from the Southwest Asia Theater of Operations.

   Management of Shipping Containers in Southwest Asia - Kuwait (A-2007-ALL-
0081.003). Objective: Determine if the Army maintained adequate visibility over shipping
containers to, within, and from the Southwest Asia Theater of Operations.

   Management of Shipping Containers in Southwest Asia – Summary (A-2007-ALL-
0081.000). Objective: Determine if the Army maintained adequate visibility over shipping
containers to, within, and from the Southwest Asia Theater of Operations.

   Retrograde Operations in Southwest Asia - Iraq (A-2006-ALL-0397.000). Objective:
(1) Determine whether retrograde operations in the Southwest Asia area of operations are
managed in an effective and cost-efficient manner. (2) Determine whether adequate
accountability and visibility were maintained over retrograded materiel and equipment.

   Retrograde Operations in Southwest Asia - Kuwait (A-2007-ALL-0858.000). Objective:
(1) Determine whether retrograde operations in the Southwest Asia area of operations are
managed in an effective and cost-efficient manner. (2) Determine whether adequate
accountability and visibility were maintained over retrograded materiel and equipment.

   Retrograde Operations in Southwest Asia - Kuwait (Rear Support) (A-2007-ALL-
0858.001). Objective: (1) Determine whether retrograde operations in the Southwest Asia area
of operations are managed in an effective and cost-efficient manner. (2) Determine whether
adequate accountability and visibility were maintained over retrograded materiel and equipment.

   Temporary Change of Station Orders and Housing for Mobilized Soldiers (A-2007-FFS-
0917.000). Objective: (1) Are policy and procedures governing the development of Temporary
Change of Station orders adequate to ensure valid travel entitlements and proper authorizations?
(2) Are policy and procedures governing the approval for payment of travel vouchers adequate to
ensure care and prudent use of travel funds for mobilized Soldiers? (3) Do Army installations
have sufficient and cost-effective lodging to support Soldiers mobilizing to the National Capital
Region?

   Theater Maintenance Processes in Europe (A-2008-ALE-0071.000). Objective: Were
theater maintenance processes structured and administered to meet reset goals and provide the
best value?

    Use of Role Players at Combat Training Centers (A-2007-FFF-0415.000). Objective: (1)
Is the Army’s process for acquiring role-players for the Combat Training Centers effective and
efficient? (2) Is the logistical support provided for role-players at the Combat Training Centers
consistent and cost-effective? (3) Does the Army adequately manage its role-players at the
Combat Training Centers?
                                               31

U.S. Army Audit Agency
U.S. Army Audit Agency


REPORTS PROJECTED FOURTH QUARTER FY 2008
   Accountability of Contractors on the Battlefield (A-2007-FFS-0553.000). Objective:
(1) Has the Army established direct authority and identified the roles and responsibilities for
accountability of contractors on the battlefield? (2) Does the Synchronized Predeployment and
Operational Tracker provide accurate, complete and relevant information for functional
management of deployed Army contractor assets in theater? (3) Are the existing and proposed
new processes and procedures for accounting for Army contractors within Iraq and Kuwait
adequate?

   Contracting Operations at the Joint Contracting Command - Iraq/Afghanistan –
Bagram (A-2008-ALL-0320.001). Objective: Determine if goods and services acquired under
contract were properly justified, awarded, and administered.

  Contracting Operations at the Joint Contracting Command - Iraq/Afghanistan – Balad
(A-2008-ALL-0319.000). Objective: Determine if goods and services acquired under contract
were properly justified, awarded, and administered.

   Establishing Rates for Shipping Containers (A-2007-ALR-0259.001). Objective: Are
customer billing rates for break-bulk and container shipments based on appropriate costs?

   Follow Up of Offline Purchases (A-2008-ALL-0466.000). Objective: Determine if the
Army implemented agreed to recommendations and corrected the problems identified in the
previous audit.

  Government Property Provided to Contractors - Kuwait Base Operations (A-2008-ALL-
0204.000). Objective: Determine whether the Army has adequate management and visibility
over Government property provided to contractors for base support operations.

   Impact of Mine Resistant Ambush Protected Vehicle Acquisitions on Other Systems
(A-2007-ALA-0978.000). Objective: Did the Army adequately plan, assess, and adjust its
requirements for new and existing vehicle systems impacted by the acquisition and deployment
of the Mine Resistant Ambush Protected vehicle system?

    Operational Purchases of Information Technology Equipment, Systems and Services -
Forces Command (A-2005-FFI-0487.000). Objective: (1) Were controls over operational
purchases and leases of information technology and communications equipment, systems, and
services by U.S. Army Forces Command deploying units effective and operating? (2) Did units
utilize appropriate funding sources for information technology and communications equipment
purchases made in support of deployments?

   Operational Purchases of Information Technology Equipment, Systems and Services -
Iraq and Kuwait (A-2005-FFI-0487.001). Objective: Were controls over purchases and leases
of information technology and communications equipment, systems, and services in place and
operating effectively for units deployed in support of Operation Iraqi Freedom?

   Reset Metrics (A-2007-ALM-0733.000). Objective: Did the Army have adequate processes
to accurately report the status of reset and associated funding to Congress?
                                               32

U.S. Army Audit Agency
U.S. Army Audit Agency


   U.S. Army Corps of Engineer Contract Functions in Iraq (A-2008-ALL-0318.000).
Objective: (1) Determine if contract requirements were correctly identified and resulted in
acquisitions that met the needs of the Army. (2) Determine if deliverables were monitored to
ensure products and services were provided in accordance with the terms of the contract.
(3) Determine if contract closeout practices for terminated contracts were adequate and in the
best interest of the Army. (4) Determine if contract award fee practices were adequate.


REPORTS PROJECTED FIRST QUARTER FY 2009
   Army Reserve Pre-mobilization Training (A-2008-FFS-0101.000). Objective: (1) Are
pre-mobilization training requirements adequately identified and executed for the Army
Reserve? (2) Are all necessary unit and individual training requirements completed prior to
mobilization? (3) Are training requirements maximized at pre-mobilization in order to minimize
post-mobilization training?

   Automatic Reset Items (A-2008-ALM-0312.000). Objective: (1) Is the Automatic Reset
Induction effectively supporting equipment requirements in the Army Force Generation model?

  Contracts for Reset (A-2007-ALM-0306.000). Objective: Did the Army have adequate
oversight of field level reset requirements to effectively plan for contract maintenance support?

   National Guard Pre-mobilization Training (A-2008-FFS-0353.000). Objective: (1) Are
pre-mobilization training requirements adequately identified and executed for the National
Guard? (2) Are all necessary unit and individual training requirements completed prior to
mobilization? (3) Are training requirements maximized at pre-mobilization to minimize
post-mobilization training?

   Property Book Unit Supply Enhanced, 3rd Infantry Division (A-2008-ALR-0307.000).
Objective: Determine if units used the Property Book Unit Supply Enhanced system to properly
account for equipment and maintain accurate data.

   Property Book Unit Supply Enhanced, 10th Mountain Division (A-2008-ALR-0360.000).
Objective: Determine if units used the Property Book Unit Supply Enhanced system to properly
account for equipment and maintain accurate data.

   Property Book Unit Supply Enhanced, I Corps (A-2008-ALR-0357.000). Objective:
Determine if units used the Property Book Unit Supply Enhanced system to properly account for
equipment and maintain accurate data.

   Property Book Unit Supply Enhanced; Summary Report (A-2008-ALR-0039.000).
Objective: Determine if units used the Property Book Unit Supply Enhanced system to properly
account for equipment and maintain accurate data.

    Rapid Fielding Initiative (A-2007-ALA-0410.000). Objective: Validate: rapid fielding
initiative requirements; the adequacy of the process used to resource rapid fielding initiative
acquisitions; and plans to institutionalize rapid fielding initiative.


                                                33

U.S. Army Audit Agency
U.S. Army Audit Agency


   Use of Role Players Armywide (less Combat Training Centers) (A-2008-FFF-0148.000).
Objective: (1) Is the Army’s process for acquisition and use of Role-players for training cost-
effective? (2) Is the logistical support provided to Role-Players consistent and cost effective?
(3) Is the oversight and administration of Role-Player contractors adequate?


REPORTS PROJECTED SECOND QUARTER FY 2009
   Army Foreign Language Program – Contracting (A-2007-ZBI-0344.003). Objective:
(1) Determine if the Army Foreign Language Program adequately identifies and receives
contracted linguists to support mission requirements. (2) Determine if procedures and practices
for awarding and justifying language contracts were adequate and in the best interest of the
Army.

   Directorate of Logistics Workload Supporting Reset (A-2008-ALM-0311.000).
Objective: Did Army garrisons have an adequate process in place to identify and meet field level
reset requirements in support of the Army Force Generation model?

   Management of the Prepositioned Fleet at Combat Training Centers (A-2008-FFF-
0044.000). Objective: (1) Are the pre-positioned fleets adequately configured? (2) Are
rotational units effectively using the pre-positioned fleets? (3) Are the maintenance costs for the
pre-positioned fleets reasonable?




                                                34

U.S. Army Audit Agency
U.S. Air Force Audit Agency


                          AIR FORCE AUDIT AGENCY 



PLANNED PROJECTS 



THIRD QUARTER FY 2008 START
   AFCENT Deployed Locations Information Technology Equipment Accountability and
Control (Project Number F2008-FD3000-0418). Objective: To evaluate United States Central
Command Air Forces (AFCENT) information technology equipment accountability and control.
Specifically, evaluate equipment requirements determination; accountability and control; and
disposal.

   AFCENT Management of Controlled Drugs (Project Number F2008-FD2000-0411).
Objective: To determine whether medical personnel properly manage controlled drugs.
Specifically, determine whether personnel properly receive, issue, store, and protect controlled
drugs.

   AFCENT Area of Responsibility Construction (Project Number F2008-FD1000-0419).
Objective: To determine if AFCENT area of responsibility construction efficiently and
effectively meets mission requirements. Specifically, determine if construction projects provide
in-theater benefits and meet desired mission capabilities; personnel utilize existing, temporary, or
movable facilities when possible; and personnel properly program, authorize, and document
operations and maintenance funding for construction.




                                                35

U.S. Air Force Audit Agency
U.S. Air Force Audit Agency


ONGOING PROJECTS 



REPORTS PROJECTED THIRD QUARTER FY 2008
   AFCENT Aerial Port Operations (Project Number F2007-FD3000-0725). Objective: To
determine whether Air Force personnel effectively managed aerial port operations within the
CENTCOM area of responsibility. Specifically, determine whether Air Force personnel
efficiently utilized airlift capacity, effectively managed cargo and passenger travel
reimbursements in the area of responsibility, and effectively managed cargo and passenger
movement.

   AFCENT Civil Engineering Material Acquisition (Project F2007-FD1000-0830).
Objective: To determine whether AFCENT effectively managed Civil Engineering material at
deployed locations. Specifically, determine whether Civil Engineering personnel properly
approved material purchases, obtained the most cost effective materials, and accounted for
materials.


REPORTS PROJECTED FOURTH QUARTER FY 2008
   AFCENT Munitions Management (Project Number F2007-FD3000-0777). Objective:
To determine whether Air Force personnel properly manage munitions in the AFCENT Area of
Responsibility. Specifically, determine whether personnel (a) properly account for, store and
secure munitions inventories; and (b) accurately forecast munitions requirements.

   AFCENT Deployed Locations War Reserve Materiel (Project Number F2007-FD3000-
0781). Objective: To determine whether AFCENT personnel effectively manage war reserve
materiel in the AFCENT Area of Responsibility. Specifically, determine whether AFCENT
personnel accurately maintain war reserve materiel quantities on-hand to meet anticipated
mission needs; appropriately use war reserve materiel assets for intended purposes; and properly
manage war reserve materiel inventory by accounting for, maintaining, marking and storing on-
hand war reserve materiel assets.

   Pallet Management (Project F2007-FC4000-0034). Objective: To evaluate pallet
management effectiveness. Specifically, evaluate requirements computation accuracy and
retrograde effectiveness.




                                               36

U.S. Air Force Audit Agency
Defense Contract Audit Agency


                 DEFENSE CONTRACT AUDIT AGENCY 




DCAA’s services include professional advice to acquisition officials on accounting and financial
matters to assist them in the negotiation, award, administration and settlement of contracts.

CUSTOMER REQUESTED AUDITS:
Many of DCAA’s audits are performed at the request of contracting officers and are most
commonly performed during the negotiation and award phase. DCAA has no control over the
number or timing of these audits and must immediately respond to the audit requests as its top
priority. DCAA issued 57 of these reports between October 2007 and March 2008. The major
categories of audit services are described below.

Price Proposals – Audits of price proposals submitted by contractors in connection with the
award, modification, or re-pricing of Government contracts or subcontracts.
Agreed-Upon Procedures Price Proposal – Evaluations of specific areas, including actual
labor and overhead rates and/or cost realism analysis, requested by customers in connection with
the award of Government contracts or subcontracts.
Other Special Requested Audits – Audit assistance provided in response to special requests
from the contracting community based on identified risks.
Preaward Accounting Surveys – Preaward audits to determine whether a contractor’s
accounting system is acceptable for segregating and accumulating costs under Government
contracts.

CONTRACT REQUIRED AUDITS:
DCAA’s audits of cost-reimbursable contracts represent a continuous effort from evaluation of
proposed prices to final closeout and payment. DCAA is able to plan the extent and timing of
most of the audits performed after the initial contract award. Audits of contractor business system
internal controls and preliminary testing of contract costs are carried out to provide a basis for
provisional approval of contractor interim payments and early detection of deficiencies.
Comprehensive contract cost audits are performed annually throughout the life of the contract and
are used by the contracting activity to adjust provisionally approved interim payments and
ultimately to negotiate final payment to the contractor. DCAA issued 81 of these reports between
October 2007 and March 2008. As of April 1, 2008 DCAA had 285 audits in process and another
68 audits planned for FY 2008.




                                               37

Defense Contract Audit Agency
Defense Contract Audit Agency



                                                                  FY 2008
         DESCRIPTION OF AUDIT AREA
                                                         In Process      Planned
         Incurred Cost (1)                                    70              6
         Labor Timekeeping (2)                                 37               13
         Internal Controls (3)                                 63               20
         Purchase Existence and Consumption (4)                22                 6
         Cost Accounting Standards (5)                         62               17
         Other (6)                                             31                 6
         Total                                               285                68

(1) Incurred Cost – Audits of costs charged to Government contracts to determine whether they
    are allowable, allocable, and reasonable.
(2) Labor Timekeeping – Audits to determine if the contractor consistently complies with
    established timekeeping system policies and procedures for recording labor costs.
(3) Internal Controls – Audits of contractor internal control systems relating to the accounting
    and billing of costs under Government contracts.
(4) Purchase Existence and Consumption – The physical observation of purchased materials
    and services and related inquiries regarding their documentation and verification of contract
    charges.
(5) Cost Accounting Standards – Audits of Contractor Disclosure Statements and compliance
    with Cost Accounting Standards.
(6) Other – Significant types of other audit activities include compliance with the Truth in
    Negotiations Act, and audits of economy and efficiency of contractor operations.




                                               38

Defense Contract Audit Agency
